 AUDIT OF THE OFFICE OF JUSTICE PROGRAMS 

EDWARD BYRNE MEMORIAL JUSTICE ASSISTANCE 

           GRANTS AWARDED TO 

     THE CITY OF PASSAIC, NEW JERSEY 



         U.S. Department of Justice 

       Office of the Inspector General 

                Audit Division 


        Audit Report GR-70-13-009 

             September 2013 



      REDACTED - FOR PUBLIC RELEASE
    AUDIT OF THE OFFICE OF JUSTICE PROGRAMS

EDWARD BYRNE MEMORIAL JUSTICE ASSISTANCE GRANTS
   AWARDED TO THE CITY OF PASSAIC, NEW JERSEY

                            EXECUTIVE SUMMARY1

       The Department of Justice Office of the Inspector General, Audit
Division, has completed an audit of three grants awarded to the City of
Passaic, New Jersey (Passaic), which received grant funds on behalf of other
participating subgrantee municipalities. The three grants were Office of
Justice Programs (OJP), Bureau of Justice Assistance (BJA), Edward Byrne
Memorial Justice Assistance Grants (JAG), and included one Recovery Act
grant. Collectively, the grants totaled $2,363,976. The general purpose of
the Recovery Act grant was to preserve jobs, promote economic recovery,
and increase crime prevention efforts. OJP awarded the JAG grants to
improve the effectiveness and efficiency of state and local criminal justice
systems.

      The objective of our audit was to determine whether reimbursements
claimed for costs under the grants were allowable, supported, and in
accordance with applicable laws, regulations, guidelines, and the terms and
conditions of the grants. We also assessed Passaic’s program performance
in meeting the grants’ objectives and overall accomplishments.

       We reviewed Passaic’s compliance with key award conditions and
identified deficiencies related to subgrantee monitoring, managing
accountable property, unallowable and unsupported salary expenses, and
progress reporting. As a result of these findings, we questioned $5,817 for
unsupported and unallowable salary expenses.

     These items are discussed in detail in the findings and
recommendations section of the report. Our audit objectives, scope, and
methodology appear in Appendix I.

      We discussed the results of our audit with Passaic officials and have
included their comments in the report, as applicable. In addition, we
requested a response to our draft audit report from Passaic officials and OJP,
and their responses are appended to this report as Appendix III and IV,
respectively. Our analysis of both responses, as well as a summary of

       1
         The Office of the Inspector General redacted portions of Appendix III of this report
because it contains information that may be protected by the Privacy Act of 1974,
5 U.S.C. §552(a) or may implicate the privacy rights of identified individuals.


                                             -i­
actions necessary to close the recommendations can be found in Appendix V

of this report.





                                   -ii-
                                 TABLE OF CONTENTS



INTRODUCTION ........................................................................ 1

Office of Justice Programs............................................................. 2

American Recovery and Reinvestment Act. ..................................... 3

City of Passaic............................................................................. 3

Our Audit Approach ..................................................................... 5


FINDINGS AND RECOMMENDATIONS........................................ 6

Internal Control Environment ........................................................ 6

Accountable Property ................................................................... 7

Grant Expenditures ..................................................................... 8

Reporting ..................................................................................10

Drawdowns................................................................................11

Compliance with Award Special Conditions.....................................12

Program Performance and Accomplishments .................................13

Conclusion .................................................................................13

Recommendations ......................................................................13


APPENDIX I - OBJECTIVES, SCOPE, AND METHODOLOGY ........15

APPENDIX II - SCHEDULE OF DOLLAR-RELATED FINDINGS.....17

APPENDIX III - CITY OF PASSIAC RESPONSE TO THE

   DRAFT AUDIT REPORT.......................................................18

APPENDIX IV - OFFICE OF JUSTICE PROGRAMS RESPONSE

   TO THE DRAFT AUDIT REPORT ..........................................22

APPENDIX V - OFFICE OF THE INSPECTOR GENERAL
   ANALYSIS AND SUMMARY OF ACTIONS NECESSARY
   TO CLOSE THE REPORT ......................................................25

                                    INTRODUCTION

       The Department of Justice Office of the Inspector General, Audit
Division, has completed an audit of three grants awarded to the city of
Passaic, New Jersey (Passaic), with up to five other disparate subgrantee
municipalities. 2 These grants included an Office of Justice Programs (OJP)
Bureau of Justice Assistance (BJA) Recovery Act Edward Byrne Memorial
Justice Assistance Grant (JAG) grant number 2009-SB-B9-3070, and two
non-Recovery Act JAG grants, numbers 2009-DJ-BX-1208 and 2010-DJ-BX­
1194. Collectively, the grants totaled $2,363,976. The general purpose of
the Recovery Act was to preserve jobs, promote economic recovery, and
increase crime prevention efforts. OJP awarded JAG funding to improve the
effectiveness and efficiency of state and local criminal justice systems.

       In a disparate situation, the units of local government must apply for
an award with a single, joint application. The city of Passaic was the fiscal
agent and grantee for these grants with up to five subgrantees: Paterson,
Clifton, West Milford, Wayne, and Little Falls. West Milford, Wayne, and
Little Falls only received Recovery Act JAG funds. As the fiscal agent,
Passaic served as the grantee and submitted the application on behalf of the
potential subgrantees, oversaw coordination of grant funds according to an
agreement with each of the subgrantees, and was legally responsible for
complying with all applicable federal rules and regulations in receiving and
expending the grant funds. Passaic also received 10 percent of each grant
award for costs associated with administering each grant.

       Each jurisdiction’s allocation was to be used for activities and projects
contributing to the retention of jobs, increase in efficiencies, and a reduction
in crime. For example, Passaic planned to purchase police radios and police
equipment, including equipment to update an indoor shooting range.
Paterson planned to purchase police vehicles and retain 23 police officer
positions by paying their salary and fringe benefits. Clifton planned to pay
for an e-mail server and 27 color monitors to replace its 911 communication
center monitors. West Milford, Wayne, and Little Falls planned to purchase a
variety of items to replace aged equipment or enhance their capabilities.



       2
          A disparate allocation occurs when a city or municipality is scheduled to receive at
least 150 percent more than the county, while the county bears more than 50 percent of
the costs associated with prosecution or incarceration of the municipality’s violent crimes.
In a disparate situation, the units of local government must apply for an award with a
single, joint application. Each jurisdiction’s allocation is used for activities and projects that
will provide meaningful and measurable outcomes consistent with the goals of the grant.



                                              -1­
      The objective of our audit was to determine whether costs claimed
under the grants were allowable, reasonable, and in accordance with
applicable laws, regulations, guidelines, and the terms and conditions of the
awards. We also assessed Passaic’s program performance in meeting grant
objectives and overall accomplishments. The following table shows the total
funding for the grants.

                           Justice Assistance Grants

                             Passaic, New Jersey


    GRANT NUMBER          START DATE        END DATE          AMOUNT
 2009-SB-B9-3070          03/01/2009      02/28/2013          $1,622,388
 2009-DJ-BX-1208          10/01/2008      09/30/2012             378,650
 2010-DJ-BX-1194          10/01/2009      09/30/2013             362,938
        TOTAL:                                                $2,363,976
Source: OJP

Office of Justice Programs

      The mission of the Office of Justice Programs (OJP) is to increase
public safety and improve the fair administration of justice across America
through innovative leadership and programs. OJP works in partnership with
the justice community to identify the most pressing crime-related challenges
confronting the justice system and to provide information, training,
coordination, and innovative strategies and approaches for addressing these
challenges.

Bureau of Justice Assistance

       The mission of the Bureau of Justice Assistance (BJA), a component of
OJP, is to provide leadership and services in grant administration and
criminal justice policy development to support local, state, and tribal justice
strategies to achieve safer communities. BJA has three primary
components: Policy, Programs, and Planning. The Policy Office was
established to provide national leadership in criminal justice policy, training,
and technical assistance to further the administration of justice. It also acts
as a liaison to national organizations that partner with BJA to set policy and
help disseminate information on best and promising practices. The
Programs Office works to coordinate and administer all state and local grant
programs and acts as BJA's direct line of communication to states,
territories, and tribal governments by providing assistance and coordinating
resources. The Planning Office works to coordinate the planning,


                                      -2­
communications, and budget formulation and execution, and provide overall
BJA-wide coordination.

American Recovery and Reinvestment Act

      On February 17, 2009, the President signed into law the American
Recovery and Reinvestment Act of 2009 (Recovery Act). The purposes of
the Recovery Act were to: (1) preserve and create jobs and promote
economic recovery; (2) assist those most impacted by the recession;
(3) provide investments needed to increase economic efficiency by spurring
technological advances in science and health; (4) invest in transportation,
environmental protection, and other infrastructure that will provide long
term economic benefits; and (5) stabilize state and local government
budgets in order to minimize and avoid reductions in essential services and
counterproductive state and local tax increases.

      The Recovery Act provided approximately $4 billion to the Department
of Justice in grant funding to be used to enhance state, local, and tribal law
enforcement efforts. Of these funds, $2 billion was provided to OJP for
Byrne JAG grants.

Office of Justice Programs Byrne Memorial Justice Assistance Grant

       The Byrne JAG program is the primary provider of federal criminal
justice funding to state and local jurisdictions. JAG funds are intended to
support all components of the criminal justice system, from multi-
jurisdictional drug and gang task forces to crime prevention and domestic
violence programs, courts, corrections, treatment, and justice information
sharing initiatives. OJP awarded the Recovery Act JAG grants based on a
state’s share of the national population as well as the state’s share of violent
crime statistics. Local governments received direct funding that was based
on the local government’s share of total violent crime within their state.

      As discussed earlier, jurisdictions, such as Passaic and its subgrantees,
were certified by OJP as disparate. As a result, the jurisdiction identified
Passaic as the fiscal agent responsible for submitting the joint application for
the total eligible allocation. This application specified the award distribution
to each jurisdiction and how the funds would be used.

City of Passaic

      In 2010, Passaic, which is situated along the Passaic River in Passaic
County and is approximately 14 miles from New York City, was the 15th
largest city in New Jersey. According to the FBI’s Uniform Crime Report ­


                                     -3­
Offenses Known to Law Enforcement by State by City for 2010, Passaic had
the 13th highest number of offenses known to law enforcement in New
Jersey with 635 violent crimes and 1,630 property crimes. According to its
grant application, Passaic was once known for its manufacturing plants and
textile mills which have greatly declined, contributing to a decline in the tax
base and high unemployment.

City of Paterson

      For 2010, Paterson was New Jersey’s third largest city by population.
In addition, according to the FBI’s Uniform Crime Report, Paterson had the
fourth highest number of known offenses reported to law enforcement in
New Jersey.

City of Clifton

       For 2010, Clifton was New Jersey’s 11th largest city by population.
Clifton had no data listed in the 480 New Jersey municipalities of the number
of known offenses reported to law enforcement as listed in the FBI’s Uniform
Crime Report - Offenses Known to Law Enforcement by State by City for
2010.

West Milford Township

      For 2010, West Milford was New Jersey’s 96th largest city by
population. In addition, West Milford had the 148th highest number of
known offenses reported to law enforcement as listed by the FBI for New
Jersey.

Wayne Township

      For 2010, Wayne was New Jersey’s 29th largest city by population. In
addition, Wayne had the 31st highest number of known offenses reported to
law enforcement as listed by the FBI for New Jersey.

Little Falls Township

      For 2010, Little Falls was New Jersey’s 175th largest city by
population. In addition, Little Falls had the 204th highest number of known
offenses reported to law enforcement as listed by the FBI for New Jersey.




                                     -4­
Our Audit Approach

      We tested compliance with what we consider to be the most important
conditions of the grants. Unless otherwise stated in our report, the criteria
we audited against were contained in 28 C.F.R. § 66 (the Uniform
Administrative Requirements for Grants), the OJP Financial Guide, and the
specific terms and conditions of each grant award. We tested Passaic’s:

     •	 Internal control environment to determine whether the financial
        accounting system and related internal controls were adequate to
        safeguard award funds and ensure compliance with the terms and
        conditions of the awards.

     •	 Accountable property to determine whether Passaic had
        procedures for controlling accountable property, and whether the
        property was included in its inventory and identified as purchased
        with federal funds.

     •	 Grant expenditures to determine whether the costs charged to the
        grant were allowable and supported.

     •	 Reporting to determine whether the required reports were
        submitted on time and accurately reflected grant activity.

     •	 Grant drawdowns to determine whether grant drawdowns were
        adequately supported in accordance with federal requirements.

     •	 Compliance with award special conditions to determine whether
        Passaic complied with all of the terms and conditions specified in the
        individual grant award documents.

     •	 Program performance and accomplishments to determine if the
        grantee met, or is capable of meeting, the grant’s objectives and
        whether the grantee collected data and developed performance
        measures to assess accomplishment of the intended objectives.

      We also performed limited work and confirmed that Passaic did not
generate or receive program income, was not required to contribute any
local matching funds, and that funds were not awarded to contractors. In
addition, since these grants were formula based, the budgets submitted
were informational and not subject to OJP approval for reprogramming. We,
therefore, performed no testing in these areas.




                                    -5­
               FINDINGS AND RECOMMENDATIONS


      Our audit determined that one of the funded program’s
      subgrantees, Paterson, charged unsupported and unallowable
      salary expenses. Further, Passaic had inadequate subgrantee
      monitoring procedures. Also, the grant recipient did not
      maintain property records and did not conduct an inventory of
      equipment. Finally, the progress reports that Passaic
      submitted contained errors. These issues, including the
      underlying causes and potential effects on the grants, are
      discussed in the body of the report.

Internal Control Environment

      According to the OJP Financial Guide, grant recipients are responsible
for establishing and maintaining an adequate system of accounting and
internal controls for grant funds received. An acceptable internal control
system provides cost and property controls to ensure optimal use of funds.
Grant recipients must adequately safeguard funds and ensure they are used
solely for authorized purposes.

     Our audit included a review of Passaic’s accounting and financial
management system, subgrantee monitoring, and Single Audit Reports, to
assess the risk of non-compliance with laws, regulations, guidelines, and the
terms and conditions of the grant awards. We also interviewed Passaic
management staff and performed expenditure testing to further assess risk.

      The Passaic Director of Finance said that he believed an adequate
system of internal controls was in place. However, our review of the OJP
requirements and Passaic practices indicated improvements could be made
in Passaic’s system of internal controls. These internal control deficiencies
are discussed in detail in the body of the report.

Financial Management System

        The C.F.R. requires recipients to maintain records to adequately
identify the source and application of grant funds provided for financially
supported activities. These records must contain information pertaining to
grant awards and authorizations, obligations, unobligated balances, assets,
liabilities, outlays or expenditures, and income.

     We found that Passaic maintained these records in three separate
accounts, one for each grant received. We determined that the three


                                     -6­
accounts tracked obligations, outlays, and expenditures allocated to each
project.

Single Audits

      We reviewed Passaic’s Single Audit Reports for FYs 2010 and 2011 and
found that Passaic received a qualified opinion because of a scope limitation
due to the presentation of the unaudited General Fixed Assets Account
Group (a group of accounts set up to account for fixed assets) in the
financial statements. A fixed asset is a tangible or intangible nonexpendable
property having a useful life of more than one year including equipment,
machinery, automobiles, furniture, and real property. As a result, in
addition to the review of Passaic’s policies and procedures, we expanded our
testing to verify grant-funded accountable property.

OJP Monitoring

       In March 2011, OJP conducted a site visit and identified areas for
follow-up, including: (1) charges made to grants prior to the grant
award (these expenditures were reversed in the accounting records
prior to the start of our audit); (2) charges for items not in the
approved budget; (3) documentation for verifying non-supplanting of
grant funds needed to be provided; (4) written policies and procedures
to ensure funds are used for authorized purposes needed to be
created; and (5) a system to maintain adequate an financial system
and internal controls to track the receipt and disbursement of federal
funds needed to be created.

      During our audit, we identified areas of continued weaknesses,
including: (1) inadequate monitoring of subgrantees, and (2) the lack
of written policies and procedures to ensure funds were used for
authorized purposes. Those items are discussed below.

Accountable Property

       The OJP Financial Guide requires grantees to be prudent in the
acquisition and management of property acquired with federal funds. In
addition, grantees are required to conduct a physical inventory of property
every 2 years, reconcile the results with the property records, and maintain
accurate property records. Property records should include such items as a
description of the property, the cost, acquisition date, percentage of federal
participation in the cost of the property, serial number, and location of the
property. A physical inventory is a physical inspection of the property that is



                                     -7­
used to verify the existence, current utilization, and continued need for the
property.

      A Passaic official said that Passaic did not conduct an inventory, but
tracked grant purchased equipment with a report generated from Passaic’s
financial system which was annotated to aid in tracking equipment. We
reviewed the tracking report and found that the report failed to identify all of
the required items noted above, including the serial number or identification
number, the title holder, the location of the property, and disposition data.
As a result, Passaic could not ensure that grant purchased equipment was
being used to achieve the grant objective and goals.

       We also conducted an inventory of a sample of equipment which
Passaic, Paterson, and Clifton purchased with grant funds. As a result of our
review, we concluded that we were able to reasonably verify the verifiable
units located on site which we selected for testing.

       We confirmed that Passaic did not conduct an inventory. In addition,
we confirmed that while Clifton performed an inventory, Clifton only updated
its inventory annually. As a result, the equipment that we attempted to
track was not reflected in Clifton’s inventory because it was purchased after
the last inventory. Additionally, Clifton and Paterson did not maintain an
inventory in compliance with the OJP Financial Guide. We found that that
neither Clifton’s nor Paterson’s inventory adequately identified grant
purchased equipment as federally-funded equipment.

Grant Expenditures

     The OJP Financial Guide requires grantees to account for expenditures
and maintain adequate supporting documentation. We reviewed grant
expenditures to determine if the costs charged to the award were allowable,
supported, and properly allocated in compliance with grant requirements.
We obtained and reviewed the invoices and available supporting
documentation for the sampled expenses charged to the grant.

      According to the applications and award documentation, the JAG
awards were to pay for various police equipment including police vehicles,
radios, computer servers and monitors, tactical equipment, a maintenance
contract for a 911 system, and police officer salaries and fringe benefits. We
found that the grant was used for the purchase of equipment, a maintenance
contract for the equipment, and personnel expenses.

     We reviewed the supporting documentation for 59 transactions and
found that for Passaic, there were no issues with the supporting


                                     -8­
documentation for 56 of those transactions. However, though all Passaic’s
transactions showed approval by a supervisor, three transactions showed no
evidence of approval for payment by Passaic’s Director of Finance as
required by Passaic’s internal control process. Further, we found that
Paterson charged $5,701 for unallowable non-officer staff (Police Assistants)
which were not approved in the grant budget, and $116 for unsupported
retroactive wages paid to a police officer for which Passaic could not provide
adequate documentation. Without adequate supporting documentation, we
could not determine whether the expense supported the grant’s goals and
objectives. As a result, we question $5,817 for either unsupported or
unallowable payroll expenses. We also recommend that Passaic ensure that
all payments are properly approved as required by their internal control
procedures.

Subgrantee Monitoring

       We reviewed Passaic’s monitoring of subgrantees, in this case the
subgrantees were the cities of Paterson and Clifton, and found Passaic’s
practices to be inadequate. A special condition of the Recovery JAG grant
required grantees to submit, upon request, documentation of its policies and
procedures for monitoring award funds to subgrantees. According to a
Passaic official, Passaic did not maintain written subgrantee monitoring
policies. Instead, Passaic maintained phone contact to monitor subgrantees
and reviewed expenditure documentation.

      Passaic, as the grantee, was required to comply with the OJP Financial
Guide, which included (1) ensuring subgrantees comply with the Single Audit
requirements (as applicable); (2) ensuring that an adequate accounting
system exists for each of its subgrantees; and (3) monitoring subgrantees'
procedures for administering the award and adhering to the terms and
conditions of the grants. The special conditions for the grants also required
that Passaic, as the grantee, ensure that the subgrantees had a valid Dun &
Bradstreet Data Universal Numbering System (DUNS) profile and an active
registration with the Central Contractor Registration (CCR) database.
However, Passaic made no effort to ensure that the subgrantees completed
these items. Because of the lack of subgrantee monitoring, Passaic only
maintained its DUNS number and ensured its own CCR registration. As
required by the financial guide, Passaic’s monitoring should ensure that a
physical inventory is performed every 2 years. Without this additional
monitoring, Passaic cannot be sure that its subgrantees are using the grant-
funded equipment in a manner to support grant goals and objectives and
that subgrantees’ policies are consistent with federal guidelines and
regulations. As a result, we recommend that Passaic and its subgrantees



                                     -9­
conduct physical inventories at least every 2 years, reconcile the results with
property records, and appropriately track grant funded equipment.

Reporting

Federal Financial Reports

      The financial aspects of the grants are monitored through Federal
Financial Reports (FFRs). FFRs are designed to describe the status of grant
funds and should be submitted within 30 days of the end of the most recent
quarterly reporting period. For periods when there have been no program
outlays, a report to that effect must be submitted. Funds for the current
award or future awards may be withheld if reports are not submitted or are
excessively late.

       Passaic officials told us that they completed FFRs using reports
generated quarterly from their accounting system. We tested 12 FFRs that
covered financial activity between October 2011 and September 2012. We
found Passaic officials submitted each FFR timely. We concluded that all 12
reports were accurate or differences were adequately explained because
each project’s total expenditures reported in the FFRs agreed with or was
less than the totals reported in Passaic’s accounting records. 3

Progress Reports

      The OJP Financial Guide established an annual progress reporting
requirement for JAG grants. The reporting period covered October 1 through
September 30, and the report was due no later than December 31st of each
year. We reviewed six of the eight JAG progress reports Passaic submitted,
covering the periods ending September 30, 2011, and September 30, 2012,
and found Passaic submitted each progress report within the required time
period. We found the reports included the required elements. For example
one report included: (1) statistics relevant to the number of police officers
retained with grant funding, (2) information regarding the use of the grant
funds by Passaic and the subgrantees and (3) equipment purchased.

      However, we found the progress reports contained errors. Passaic
provided an incorrect amount for subgrantee Recovery Act expenses for
equipment and supplies. Passaic also included personnel expenses when
reporting JAG Recovery Act funds spent on equipment and supplies. In


       3
          The differences between the accounting records and submitted FFRs resulted from
timing differences in posting of the expenditures to the accounting records and subsequent
FFRs captured these expenditures.


                                          - 10 ­
addition, Passaic made a duplicate entry, recording the same $192,985 in
expenditures for two different quarters. A Passaic official said that he had
inadvertently made the errors. Without accurate progress reports, OJP
cannot determine whether grant funds are being used to achieve grant goals
and objectives.

Recovery Act Reports

      In addition to the normal reporting requirements, grantees receiving
Recovery Act funding are required to submit quarterly reports which include
both financial and programmatic data. The Recovery Act requires recipients
to submit their reporting data through FederalReporting.gov, an online web
portal that collects all the reports. Recipients must enter their data no later
than the 10th of the month after each quarter beginning
September 30, 2009.

      For the Recovery Act grant, Passaic was responsible for submitting
13 reports from the grant award acceptance date through October 2012.
We examined two quarterly reports and we found the reports included the
required elements and the reports were submitted timely.

      Passaic officials submitted all of the required financial, progress, and
Recovery Act reports in a timely manner. However, because the progress
reports submitted by Passaic contained errors, we concluded that Passaic did
not adequately meet its reporting requirements for progress reports, and
recommend that Passaic develop policies to ensure that the progress reports
submitted are accurate.

Drawdowns

       Drawdown is a term to describe when a recipient requests funding for
expenditures associated with a grant program. The OJP Financial Guide
establishes the methods by which the Department of Justice makes
payments to grantees. Advances are allowed, but grant funding must be
used within 10 days of the transfer. To determine if drawdowns were
completed in advance or on a reimbursement basis, we interviewed grant
officials, reviewed documentation completed by a grant official, and
reviewed documentation supporting the actual expenditures. We
determined grant funds were requested on a reimbursement basis. In
addition, we determined drawdowns were requested based on actual
expenditures.




                                     - 11 ­
      At the time of our field work, Passaic had drawn down $2,004,898 of
the JAG grant funds. We examined the cumulative drawdowns Passaic made
between August 2009 and September 2012. Generally, Passaic generated
expense reports from its financial system for the three grants and submitted
the drawdown request for that amount.

Compliance with Award Special Conditions

      Award special conditions are included in the terms and conditions of a
grant, and special conditions may be added to address provisions unique to
an individual grant award. All three grants we audited contained a special
condition that grant funds be used to supplement existing funding and not
supplant, or replace, funding already appropriated for the same purpose.

Supplanting Analysis

      The OJP Financial Guide and the special conditions of the grant awards
we audited require grantees to use federal funds to supplement existing
funds for program activities and must not replace those funds that have
been appropriated for the same purpose. During our audit, we completed an
analysis of the number of jobs Passaic preserved with Recovery Act funding
through the grants, examining the potential for supplanting.

      Recovery Act funding was provided through Passaic to retain
24 existing full-time police officer positions at Paterson and Clifton.
According to the application, these positions would have been laid off as a
result of events unrelated to receiving federal funding. Paterson received
funding for 23 of the 24 officer positions, and as a result we tested to
determine if Paterson supplanted the grant funds. To eliminate the potential
for supplanting after a grantee receives funding, the grantee is expected to
maintain its local budget for sworn officers during the grant period.
However, the grant terms provide an exception to the requirement if the
recipient can demonstrate the reduction occurred for reasons unrelated to
grant funding.

       Paterson’s request for funds indicated that without the funds the
23 officers would be laid off. Our review found that Paterson laid off
125 police officers during 2011. We reviewed budget documents and found
the reduction in sworn officer strength and dollars budgeted resulted from
reductions in funding provided by the State of New Jersey. Based on our
review of budget documents and sworn officer strength, we determined that
Paterson’s reduction in police force strength was due to reasons other than
being awarded grant funds. As a result, we concluded that Paterson’s lay­
offs did not violate the award’s non-supplanting requirement.


                                   - 12 ­
Program Performance and Accomplishments

       The Recovery Act included an objective to preserve jobs. As
previously noted, Passaic reported on the positions retained. There were no
positions retained for the two quarters tested during our review. The
Passaic Recovery JAG program included funding jobs that would have been
eliminated if Passaic, or its subgrantees, did not receive grant funding. As
discussed earlier, Passaic’s subgrantees received funding to retain jobs,
including Paterson to preserve 23 police officer jobs and Clifton to preserve 1
job. Our analysis for supplanting indicators confirmed that Paterson
preserved 23 police officer jobs through September 2011 that would have
been eliminated in the absence of grant funding. In addition, we found no
evidence that Clifton did not preserve the job of one officer.

       In addition to the preservation of jobs, the grants were used to fund
purchases to support law enforcement functions within Passaic and its
subgrantees. We interviewed officials from the grantee and two of the
subgrantees, reviewed progress reports and other supporting documents,
and found evidence that Passaic and the subgrantees purchased law
enforcement equipment that may address the reduction of crime in their
local jurisdictions.

Conclusion

      We found Passaic generally met the terms and conditions for the JAG
grants we audited. Specifically, we found that grant funds were generally
managed appropriately and used for the purposes of the grants.

      However, we also found Passaic had inadequate subgrantee
monitoring, inadequate grant funded equipment/inventory management,
and inaccuracies in progress reporting. Additionally, Paterson charged
$5,817 in questioned salary expenses. As a result, we make seven
recommendations to address these findings.

Recommendations

We recommend that OJP:

1.	 Ensure Passaic develops and implements written subgrantee monitoring
    polices that comply with OJP requirements.

2.	 Ensure Passaic and its subgrantees develop and implement systems to
    track grant-funded equipment in conformance with OJP requirements.



                                    - 13 ­
3.	 Ensure that Passaic follows its internal control procedures for the
    purchase, receipt, and payment of goods and services.

4.	 Ensure that Passaic and its subgrantees conduct physical inventories at
    least every 2 years, reconcile the results with property records, and
    appropriately track grant funded equipment.

5.	 Ensure that Passaic implements policies ensuring accurate progress
    reports are submitted.

6.	 Remedy the $5,701 in unallowable salary expenses.

7.	 Remedy the $116 in unsupported salary expenses.




                                    - 14 ­
                                                              APPENDIX I



           OBJECTIVES, SCOPE, AND METHODOLOGY

       The objective of our audit was to determine whether reimbursements
claimed for costs under three grants were allowable, reasonable, and in
accordance with applicable laws, regulations, guidelines, and the terms and
conditions of the grants. We also assessed grantee program performance in
meeting grant objectives and overall accomplishments. We reviewed
activities in the following areas: (1) internal control environment,
(2) accountable property, (3) grant expenditures, (4) reporting,
(5) drawdowns, (6) compliance with award special conditions, and
(7) program performance and accomplishments. We determined that
indirect and matching costs and budget management and control were not
applicable to these grants.

      We conducted this performance audit in accordance with generally
accepted government auditing standards. These standards require that we
plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our
audit objectives. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit
objectives.

      We audited one Office of Justice Programs (OJP) Bureau of Justice
Assistance (BJA) Recovery Act Edward Byrne Memorial Justice Assistance
Grant (JAG) number 2009-SB-B9-3070 and two non-Recovery Act JAG
grants numbers 2009-DJ-BX-1208 and 2010-DJ-BX-1194. The grantee had
received a total of $2,004,898 in grant funding through September 2012 for
the three grants.

       We tested compliance with what we consider to be the most important
conditions of the grants. Unless otherwise stated in our report, the criteria
we audited against are contained in the Code of Federal Regulations: 28
C.F.R. § 66, Uniform Administrative Requirements for Grants, the OJP
Financial Guide, and the award documents. We reviewed Passaic’s Single
Audit Reports for FYs 2010 and 2011 and found that Passaic received a
qualified opinion because of a scope limitation due to the presentation of the
unaudited General Fixed Assets Account Group financial statements. As a
result, we conducted additional accountable property testing.

      In conducting our audit, we tested the Passaic’s award activities in the
following areas: accounting and internal controls, accountable property,
grant expenditures, budget management and controls, reporting,
drawdowns, compliance with Other Award Special Conditions; program



                                    - 15 ­
performance and accomplishments. In addition, we reviewed the internal
controls of the city’s financial management system specific to the
management of Department of Justice funds during the award period under
review. However, we did not test the reliability of the financial management
system as a whole. We also performed limited tests of source documents to
assess the accuracy of reimbursement requests and Federal Financial
Reports.




                                   - 16 ­
                                                                      APPENDIX II



            SCHEDULE OF DOLLAR-RELATED FINDINGS


QUESTIONED COSTS: 4                                          AMOUNT            PAGE

Unallowable Expenditures                                         $5,701             9

Unsupported Expenditures                                           $116             9

TOTAL QUESTIONED COSTS:                                         $5,817

TOTAL DOLLAR-RELATED FINDINGS:                                  $5,817




      4
         Questioned Costs are expenditures that do not comply with legal, regulatory, or
contractual requirements, or are not supported by adequate documentation at the time of
the audit, or are unnecessary or unreasonable. Questioned costs may be remedied by
offset, waiver, recovery of funds, or the provision of supporting documentation.




                                         - 17 ­
                                                                                  APPENDIX III


              CITY OF PASSAIC, NEW JERSEY

             RESPONSE TO THE DRAFT REPORT




                           DEPARTMENT OF POLICE



                                                                                        •
                               C ITY OF PASSAIC. NEW J ERSEY
                                         973-365-3900




                                                   August 12, 2013



Thomas O. Puer£er
Regional Audit Manager
Philadelphia Regional Audit Office
Office of the Inspector General
U.S. Department of Justice
701 Market Street, Suite 201
Philadelphia, PA 19106

Dear Mr. Puerzer:

        In accordance with the July 25, 2013 draft audit issued by your office, enclosed is the
response and documentation from the City of Passaic. We would like to thank you and the auditors,
for their cooperation with the employees of the City of Passaic, Clifton and Paterson while
perfonning said audit.

                                                   Sincerely,


                                               ~.
                                               l:Y:gOSIO,
                                                     (l40i.L.
                                                   Andrew A. White, Detective
                                                   Grant Administrator



Enclosures

c:   Ms. Linda 1. Tayior




                           330 PASSAIC STREET ' PASSAIC. NEW JERSEY 07051i




                                              - 18 ­
Re commendations

We recommend that OJP:

1.    Ensure Passaic develops and implements written subgrantee
      monitoring polices that comply with OJP requirements.
      Concurrence
      A written policy and procedure for sub-recipient's monitoring has been
      est ablished, see attachment #1 for further det ails. A copy of t his policy and
      procedure has been sent to the DOJ grant manager assigned to t he Cit y Of
      Passaic.

2.    Ensure Passaic and its subgrantees develop and implement systems
     to track grant-funded equipment in conformance with OJP
     requirements .
       Concurrence
      A written Tracking & Inventory policy and procedure for the City of
     Passaic Police Department and sub-recipient has been established.
     See attachment#1 for further details

3.    Ensure that Passaic follows its internal control procedures for the
      purchase, receipt, and payment of goods and services.
       Non Concurrence
       A review of the City's Purchase Orders reflects signatures by all parties (see
      attachment exhibits#3). All City of Passaic purchases are electronically
      requisitioned and electronically approved by Department Head, Qualified
      Purchasing Agent (Administration) and the Finance Director. Payments
      requested by sub grantees are checked for proper account, balance in the
      Blanket PO's issued and if supporting documentation is attached before the
      item makes the Bill List. The Bill List is reviewed and approved prior to
      subm ission t o the Clerk's Office for Council payment approval.

4.     Ensure that Passaic and it s sub grantees conduct physical inventories
     at least every 2 yea rs, reconcile the resul ts with property records, and
     appropriately track grant funded equipment.
      Concurrence
     A written Tracking & I nventory policy and procedure fo r the City of
     Passaic Police Department and sub-recipient has been established.
     See attachment# 1 for further detai ls.




                                       - 19 ­
  5.     Ensu re that Passaic impl ements policies ensuring accurate progress
         reports are submitted.
         Concurrence
         Prior to submission of Byrne Grants progress reports, they wi ll be
         printed and reviewed by the City of Passaic Finance Director to
         ensure that information is correct and accu rate. See attachment#2.

  6.     Remedy the $5,701 in unallowable salary expenses .
         Non Concurrence
                                             is the $5,669.45 to Officers _
                                        attributable to Title Police Assistant. These
                                    I Academy but instead , the new hires were
         trained internally by Paterson Police Depa rtment, tested per NJS Civil
         Service and sworn in as Police Officers. Expense would be no more
         tha n salary paid to a cadet in the Academy and as such the City
         request that the expense be allowed as cost of new hire. Please see
         explanatory provided by Paterson Police Department.

          The Police Assistant Program was an initiative which sough t to give city residents a greater
opportunity and alternate mean s of pursing a law enforcemen t career within th eir respective hometown
agencies. The job title and program itself comes straight from the Civil Service Commission (eSC) and is
available to any municipality that wished to participate based on demonstrated need {lock 01 diversity,
minority groups, women etc .•}, Potential candidates take an     e~amination   for the non· permanent ti tle of
Police Assistance. The   e~am   is open to RESIDENTS ONLY who must maintain that status throoghout the
program. Successful candidates are ranked in order alter t!!:'Sting and the list of eligible's thus provided
to the City from the eSc. Applicants are then called based on vacancies and must pass a background
e. amination. If successful, they are hired into the pl'ogram.

The program consists of in-service training bl()(ks related to police work, such as dispatch,
telecommunications, ce ll-b lock operations, and other administrative/non-enforcement posts. The Police
Assistant then serves in a paid appren tice ship -type capacity for a minimum of one (1) full yeaLlf they
have good evaluations and Job performance, they take the next Police Officer Entran-ce ham
administered by CSC with a different symbol number. For the Police Assistant, the e.am is simply
pass/lall. If successful they are promoted to the rank of police officer ahead of eligible's on the regular
police list..

The job title of Police Assistant is non·permanent. That means if they have poor performance
evaluations, disciplinary actions or fail the regular police e.am then may not continue on in the role of
police assistan t and must be offered alternate employment or termina ted.




                                                  - 20 ­
  7.   Remedy the $116 in unsupported sala ry expenses.
       Non Concu rrence
       The amount in question arrives from assumptions of the rate of pay for
       the Officers involved. The amount shou ld be allowed per Paterson
       officia l :

Fo- . . ,hose regula r wages was $1,377.31, it seems that $1,281.23 represents the regular
salary without shift differential. Shift differential normally adds another 5% (or $64.06) for a total of
$1,345.30. There seems to be another unaccounted for $32.02 (or appro~. 2.5% of gross salary). Can
you e)lplain thi s difference?

- . . . ,as not receiving shift differential, he was receiving $1,281.23 regular salary and $96.08
was for education credits, totaling $1,377.31.

Regarding the $640.46 retroactive payment lor_                       I can't determine how the $640.46
was calculated. According to data Paterson provided, 1,228.22 was charged to the grant for most pay
periods prior to the 10/30/09 pay date but the correct amount would have been $1,281.23. The
resulting difference is $53.02. If we compute that amount lor the same 10 back pay periods as we did
lor- . retroactive pay of $530.21 is calculated. Can you e)lplain the difference?

                   Prio r to retro he was earning $1,169.73 regular base wages and $58.49 for shift diff
totaling           a pay period. After increase his relular base salary was $1,281.23 and $64.06 for
shift diff totaling $1,345.30, therefore total Increase per pay was $111.50 regul ar base salary and
ad ditional $5.57 per pay. His ""tro payment wa s $640.46.




                                                 - 21 ­
                                                                                     APPENDIX IV


         OFFICE OF JUSTICE PROGRAMS

     RESPONSE TO THE DRAFT AUDIT REPORT



                                                     U.S. Department of Justice

                                                     Office of Justice Programs

                                                     Office of Audil. A$$e$$ment, and Managemenl




     AUG 22 2013



MEMORANDUM TO:                 lliomas O. Puer.-:er
                               Regional Audit Manager
                               Philadelphia Regional Audit Office
                               Office of the Inspector General

FROM:
                              M""~" A. H""",,,,,Z(, ~O/"MJ--..
                              DIrector
                                                a/ ~'\ ~
                                                (

SUBJECT:                      Response to the Draft udit Report, Audit o/the Office ofJustice
                              Programs, Grants Awarded 10 {he Cily of Passaic, New Jersey

This memorandum is in reference to your correspondence, dated July 25. 2013. transmitting the
above-refe renced draft audit report for the City of Passaic, Ne w Jersey (Passaic). We consider
the subject report reSQlved and request written acceptance of this action from your office.

The draft report contains seven recomme ndations and $5,817 in questioned costs. The following
is the Office of J ustice Programs' (OJP) analysis of the draft audit report recommendations. For
ease of rev iew, the recomme ndations are restated in bold and are followed by our response.

I.     We recommend that OJP ensures that Passaic de~'elops and impleme nts written
       subgra ntce monitoring policies that comply with OJP requirements.

       OlP agrees with the recommendation. We will coordinate with Passaic to obtain a copy
       of written procedures implemented to ensure that Federal grant funds awarded to
       subgrantees are properly accounted for, controlled, and monitored.

2.     We recommend t hat OJP ensures that Passaic a nd its subgrn ntces develop and
       implement systems to track gra nt-funded equipment in conformance with OJP
       requirements.

       OJP agrees with the recommendation. We will coordinate with Pa~saic to obtain a copy
       of written procedures, developed and implemented, to ensure that Passaic and its
       subgramees properly track equipment purchased wi th Federal grant funds in confonnance
       wit h OlP requirements.




                                              - 22 ­
3.     We recommend tbat OJP ens ures thai Passaic follows ils inlernlll control
       proccdures for the pu~hase, receipt, lind payment of goods a nd services.

       OJP agrees with the recommendation. We will coordinalc with Passaic to obtain
       docunlt:ntation demonstrating thai key Passaic employees have received and been trained
       on internal control procedures relaled to the purchase, receipt, and payment of goods and
       services; and that Ihese procedures have been properly implemented by Passaic.

4.     We recommend that OJP ensures that Passa ic an d its subgrn ntces conduct physica l
       in ve ntorl e~ alleHst every 2 years, reeoncilc the results with property records, and
       !lppropriatcly track grant funded equipment.

       OlP agrees with the recommendation. We will coordinate with Passaic to obtain a copy
       of written procedures, developed and implemented, to ensure that fixed assets purchascd
       with Federal funds, by Passaic and its subgrantees. arc clearly identified in Iheir fixed
       asset accounting systems; physical inventories of fi xed asse ts purchased with Federal
       funds are performed at least every two years; and the results of the physical inventories
       are reconciled (Q the fixed asset records.

5.     \Ve r«ommend that OJP ensures that Passaic implements policies ensuring accurate
       progreu reports are submitted.

       OJP agrees with the recommendation. We will coordinate with Passaic 10 obtain a copy
       of written procedures implemented to ensure that future sem.i-annual progress reports are
       accuralely prepared and reviewed by management; and the supporting documenlluion is
       maintained for future auditing purposes.

6.     We recommend that OJP remedies the $5,701 In unallowable salary expenses.

       OlP agrees with the recommendation. We will coordinate with Passaic to remedy the
       $S,70 I in questioned costs related to unallowable salary expenses charged to its OJP
       grants.

7.     We recommend tbat OJP remedies the $116 In unsupported salary           C):pen~ e9.


       OlP agrees with the recommendation. We will coordinate with Passaic to remed y the
       S116 in questioned costs related to unsupporh.:d salary expenses charged 10 its OlP
       grants.

We appre(;iate thc opportunity to review and comment on the draft audit report. If you have any
questions or require additional infom18tion, plcase contact Jeffery A. Haley, Deputy Director,
Audit and Review Division, on (202) 616-2936.




                                            - 23 ­
cc:   Jeffery A. Haley
      Deputy Director, Audit and Re view Division
      Office of Audit.. Assessment, and Management

      Tracey Trautman
      Deputy Director for Programs
      Bureau of Justice Assistance

      Eileen Garry
      Deputy Director
      Bureau of Justice Assistance

      James Simonson
      Budget Director
      Bureau of Justice Assistance

      Amanda loCicero
      Audit Liaison
      Bureau of Justice Assistance

      Jennifer Lugue
      Grant Program S~ iatist
      Bureau of Justice Assistance

      Richard P. Theis
      Ass istnnt Director, Audit Liaison Group
      Internal Review and Evaluation Office
      Justice Management Division

      a JP Exe<:utive Secretariat
      Control Number 2013 1249




                                                 J




                                           - 24 ­
                                                                        APPENDIX V



  OFFICE OF THE INSPECTOR GENERAL ANALYSIS AND
SUMMARY OF ACTIONS NECESSARY TO CLOSE THE REPORT

      The OIG provided a draft of this audit report to the City of Passaic,
New Jersey (Passaic), and the Office of Justice Programs (OJP) for review
and comment. Passaic’s response is included as Appendix III of this final
report and OJP’s response is included as Appendix IV. The following
provides the OIG analysis of the responses. Based on the OIG’s analysis of
the responses and the documentation Passaic provided, this audit report is
issued resolved.

Recommendation Number

  1. Resolved. OJP agreed with our recommendation to ensure Passaic
     develops and implements written subgrantee monitoring polices that
     comply with OJP requirements. In its response, OJP stated it will
     coordinate with Passaic to obtain a copy of the written procedures
     implemented to ensure the federal grant funds awarded to subgrantees
     are properly accounted for, controlled, and monitored.

      In its response, Passaic provided a copy of its April 22, 2013, written
      policy to monitor sub-recipient monitoring. 5 However, Passaic’s policy
      to monitor sub-recipients lacks sufficient detail to resolve the
      weaknesses we found in its subgrantee monitoring. For example,
      Passaic’s policy does not identify the frequency with which such site
      visits of subgrantees will be performed. Performing site visits designed
      to adequately review subgrantee compliance with grant rules will help
      ensure subgrantee compliance with grant rules, such as the inventory
      management requirements which we found some subgrantees did not
      comply with.

      In addition, Passaic’s policy states that Passaic plans to “review detailed
      financial and program data, and information submitted by the sub-
      recipient when no site visit is conducted. Documents to review might
      include timesheets, invoices, contracts, and ledgers that tie back to
      financial reports.” However, this procedure does not specify in
      sufficient detail the extent of such reviews; therefore we could not
      determine whether the reviews would address the deficiencies we found
      in our audit. For example, the grant rules governing grant recipient

       5
         Throughout its response Passaic refers to the subgrantees as sub-recipients. For
purposes of this discussion they are referring to the same thing, the municipalities which
received portions of the grant funds.



                                           - 25 ­
   standards for financial management systems require that recipients’
   financial management systems provide for a comparison of outlays with
   budget amounts for each award. Detailed comparison of subgrantees’
   financial and program data with the approved grant budget and grant
   terms may help prevent unallowable expenses from being incurred by
   subgrantees, such as the unapproved subgrantee salaries questioned in
   our audit.

   This recommendation can be closed when we receive a copy of

   Passaic’s policy to monitor subgrantees that fully address the

   weaknesses identified in this report.


2. Resolved. OJP agreed with our recommendation to ensure that
   Passaic and its subgrantees develop and implement systems to track
   grant-funded equipment in conformance with OJP requirements. OJP
   stated in its response that it will coordinate with Passaic to obtain a
   copy of written procedures, developed and implemented, to ensure that
   Passaic and its subgrantees properly track equipment purchased with
   Federal grant funds in conformance with OJP requirements.

   Passaic concurred with our recommendation to ensure it, and its
   subgrantees, develop and implement systems to track grant-funded
   equipment in conformance with OJP requirements. Passaic provided its
   April 22, 2013, written Tracking and Inventory policy and procedure for
   the City of Passaic and its subgrantees. The policy discusses
   procedures that Passaic and its subgrantees plan to perform, but
   provides no evidence of implementation.

   This recommendation can be closed when we receive documentation
   demonstrating that Passaic and the subgrantees have implemented its
   policy to track grant-funded equipment and that the grant-funded
   equipment has been inventoried and is being tracked by Passaic and
   the subgrantees according to OJP requirements.

3. Resolved. OJP agreed with our recommendation to ensure that
   Passaic follows its internal control procedures for the purchase, receipt,
   and payment of goods and services. In its response, OJP stated that it
   will coordinate with Passaic to obtain documentation demonstrating
   that key Passaic employees have received and been trained on internal
   control procedures related to the purchase, receipt, and payment of
   goods and services; and that these procedures have been properly
   implemented by Passaic.




                                  - 26 ­
   Passaic disagreed with this recommendation and provided with its
   response copies of the purchase orders signed by the Finance Director
   authorizing payment. Passaic officials stated that these signed
   purchase orders were found during their development of the response
   to our report. However, the purchase orders provided prior to the
   issuance of our draft showed no evidence of authorization by the
   Finance Director. Further, these new purchase orders did not identify a
   date for the Finance Director’s authorizing signature. As a result, we
   cannot determine when the Finance Director authorized the payment,
   and whether it was authorized prior to the expenditure of funds.

   This recommendation can be closed when we receive documentation
   demonstrating that key Passaic employees have received and been
   trained on internal control procedures related to the purchase, receipt,
   and payment of goods and services; and that these procedures have
   been properly implemented by Passaic.

4. Resolved. OJP concurred with our recommendation to ensure that
   Passaic and its subgrantees conduct physical inventories at least every
   2 years, reconcile the results with property records, and appropriately
   track grant-funded equipment. In its response, OJP stated it will
   coordinate with Passaic to obtain a copy of written procedures,
   developed and implemented to address the recommendation.

   Passaic concurred with the recommendation and provided the April 22,
   2013, written Tracking and Inventory policy and procedure for Passaic
   and its sub-recipients. This policy discusses procedures that Passaic
   and the subgrantees plan to perform, but provides no evidence of
   implementation.

   This recommendation can be closed when we receive documentation
   demonstrating that the subgrantees have developed and implemented
   a system to track grant-funded equipment and that the grant-funded
   equipment has been inventoried and is being tracked by Passaic and
   the subgrantees according to OJP requirements.

5. Resolved. OJP agreed with our recommendation to ensure that
   Passaic implements policies ensuring accurate progress reports are
   submitted. In its response, OJP stated it will coordinate with Passaic to
   obtain a copy of the written procedures implemented to ensure that
   future semi-annual progress reports are accurately prepared and
   reviewed by management; and the supporting documentation is
   maintained for future auditing purposes.




                                  - 27 ­
  Passaic concurred with the recommendation. In its response, Passaic
  stated that progress reports would be reviewed by the Finance Director
  to ensure accuracy and provided an undated policy stating such
  requirement. However, in our opinion, it does not appear that the level
  of review required by this policy would ensure accurate progress
  reports in the future. For example, the Finance Director may not be
  able to accurately verify non-financial data in the progress reports. In
  our opinion, progress report data should be accurate, reviewed by
  appropriate management, and supported by adequate documentation.

  This recommendation can be closed when we receive documentation
  demonstrating the development and implementation of written
  procedures to ensure that future semi-annual progress reports are
  accurately prepared and reviewed by management; and the supporting
  documentation is maintained for future auditing purposes.

6. Resolved. OJP agreed with our recommendation to remedy the
   $5,701 in unallowable salary expenses. OJP stated in its response that
   it will coordinate with Passaic to remedy those costs.

  In its response, Passaic did not concur with our recommendation
  because it believed that a subrecipient, the Paterson Police
  Department, made an allowable disbursement by paying non-sworn
  police department staff (Police Assistants) and that the Police
  Assistants should be treated as newly hired police officers in training.

  In our judgment, the expenses for either “Police Assistants” or police
  officers in training would still be an unallowable since Paterson’s budget
  specified that it intended to use the grant funds to retain sworn officers
  hired on November 17, 2008. The funds were intended to sustain the
  salaries for the 23 sworn officers in the following fiscal year, beginning
  July 1, 2009. According to the documentation Paterson previously
  provided, the payments in question represented retroactive pay that
  was due the four officers for a union increase that was payable for a
  period prior to the grant when the officers were “Police Assistants.”
  Because these payments were incurred for non-officer expenses outside
  the scope of that approved by the budget, which only allowed for sworn
  officers, we questioned those costs. In our prior correspondence with
  Paterson during the audit, Paterson agreed that these retroactive
  payments should not have been charged to the grant.

  This recommendation can be closed when we receive documentation
  showing that the unallowable expense has been remedied.




                                 - 28 ­
7. Resolved. OJP concurred with our recommendation to remedy the
   $116 in unsupported salary expenses. In its response, OJP stated it
   will coordinate with Passaic to remedy the $116 in questioned costs
   related to unsupported salary expenses charged to its OJP grants.

  In its response, Passaic did not concur with our recommendation based
  on calculations it made regarding the unsupported salary expenses
  and provided excerpts from correspondence between Passaic and its
  subrecipient, Paterson. Prior to issuing the draft report, we requested
  a detailed explanation of the retroactive payment amount. In
  response to our request, Paterson indicated that since the officer had
  been receiving the shift differential the entire time, he was not eligible
  for retroactive pay for the shift differential. In response to our draft
  report, Paterson changed its explanation and stated that there is also
  retroactive shift differential due. However, neither Paterson nor
  Passaic provided adequate detailed support for the retroactive
  payment amount. While Paterson states that the underlying
  assumption of our rate of pay is inaccurate, it has not provided
  documentation to support their computation. Our computation was
  made using the data Paterson supplied without computation of
  retroactive shift differential. In its response, Paterson only provided
  summary data on the retroactive payment and no detail for the shift
  differential computation.

  This recommendation can be closed when we receive documentation
  that the unsupported salary expense has been remedied.




                                - 29 ­
